Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MICHIGAN STATE MEDICAID
   FRAUD CONTROL UNIT:
    2013 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                        January 2014
                       OEI-09-13-00070
MICHIGAN STATE MEDICAID FRAUD CONTROL UNIT:
2013 ONSITE REVIEW
OEI-09-13-00070

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees all State Medicaid Fraud Control Units
(MFCUs or Units) with respect to Federal grant compliance. As part of this oversight,
OIG annually reviews and certifies all Units. In addition, OIG conducts onsite reviews of
selected States. These reviews assess Unit performance in accordance with the 12 MFCU
performance standards and monitor Unit compliance with Federal grant requirements,
laws, and regulations.

HOW WE DID THIS STUDY
We analyzed data from seven sources: (1) a review of documentation, policies, and
procedures related to the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of
Unit staff; (5) structured interviews with the Unit’s management and selected staff; (6) an
onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND
From fiscal years 2010 through 2012, the Unit reported recoveries of $144 million,
64 convictions, and 53 civil judgments and settlements. The Unit maintained proper
fiscal control of its resources. Most Unit case files contained documentation of
supervisory approval to close cases; however, 21 percent of case files lacked
documentation of supervisory approval to open cases, and 67 percent lacked
documentation of periodic supervisory reviews. In addition, the Unit did not refer
sentenced individuals to OIG for program exclusion within an appropriate timeframe.
The Unit’s policies and procedures manual was not updated to reflect current Unit
operations. Finally, the Unit’s memorandum of understanding (MOU) with Michigan’s
State Medicaid agency—the Department of Community Health (DCH)—did not reflect
current law and practice as required.

WHAT WE RECOMMEND
We recommend that the Michigan Unit (1) ensure that supervisory approval to open cases
and periodic supervisory reviews are documented in Unit case files, (2) ensure that it
refers individuals for exclusion to OIG within an appropriate timeframe, (3) revise its
policies and procedures manual, and (4) revise its MOU with DCH. The Unit concurred
with all four of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

       From FY 2010 through FY 2012, the Unit reported recoveries                                              

       of $144 million, 64 convictions, and 53 civil judgments and 

       settlements........................................................................................7 

       The Unit maintained proper fiscal control of its resources ..............8 

       Most Unit case files contained documentation of supervisory 

       approval to close cases; however, 21 percent of case files                                       

       lacked documentation of supervisory approval to open cases 

       and 67 percent lacked documentation of periodic supervisory 

       reviews .............................................................................................8 

       The Unit did not refer 69 percent of sentenced individuals to 

       OIG for program exclusion within an appropriate timeframe .........9 

       The Unit’s policies and procedures manual was not updated, 

       and the Unit’s MOU with DCH did not reflect current law and 

       practice...........................................................................................10 

       Other Observations: According to the Unit, having an OIG 

       workstation within the Unit promoted cooperation between the 

       Unit and OIG, and the Unit streamlined its patient abuse and 

       neglect referral process ..................................................................11

Conclusion and Recommendations ............................................................13 

       Unit Comments and Office of Inspector General Response ..........14 

Appendixes ................................................................................................15 

       A: Performance Standards for MFCUs (Units) ............................15 

       B: Revised 2012 Performance Standards for MFCUs (Units) ......19 

       C: Referrals of Provider Fraud and Patient Abuse and Neglect 

       to the Michigan MFCU by Source, FYs 2010 Through 2012 .......26 

       D: Investigations Opened and Closed by the Michigan MFCU, 

       by Provider Category and Case Type, FYs 2010 Through 2012 ...27 

       E: Case File Review Population, Sample Size Counts, and 

       Confidence Interval Estimates .......................................................29 

       F: Unit Comments.........................................................................31 

Acknowledgments......................................................................................34 

                   OBJECTIVE
                   To conduct an onsite review of the Michigan State Medicaid Fraud
                   Control Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law.1 Pursuant to Title XIX of the SSA, each State
                   must maintain a certified Unit unless the Secretary of Health and Human
                   Services (HHS) determines that operation of a Unit would not be
                   cost-effective because (1) minimal Medicaid fraud exists in that State; and
                   (2) the State has other, adequate safeguards to protect Medicaid
                   beneficiaries from abuse and neglect.2 Currently, 49 States and the
                   District of Columbia (States) have created such Units.3 In fiscal year
                   (FY) 2012, combined Federal and State grant expenditures for the Units
                   totaled $217.3 million, of which Federal funds represented
                   $162.9 million.4, 5 That year, the 50 Units employed 1,901 individuals.6
                   To carry out its duties in an effective and efficient manner, each Unit must
                   employ an interdisciplinary staff that consists of at least an investigator, an
                   auditor, and an attorney.7 The staff reviews complaints referred by the
                   State Medicaid agency and other sources and determines their potential for
                   criminal prosecution and/or civil action. Collectively, in FY 2012, the
                   50 Units reported 1,337 convictions and 823 civil judgments and




                   1
                     Social Security Act (SSA) § 1903(q).

                   2
                     SSA § 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s

                   responsibilities may include reviewing complaints of misappropriation of patients’ 

                   private funds in residential health care facilities. 

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. Medicaid 

                   Fraud Control Units, Office of Inspector General (OIG) web site. Accessed at 

                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on May 21, 2013. 

                   4
                     All FY references in this report are based on the Federal FY (October 1 through
                   September 30).

                   5
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   May 8, 2013.

                   6
                     Ibid. 

                   7
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.


Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                          1
                   settlements. That year, the Units reported recoveries of approximately
                   $2.9 billion.8
                   Units are required to have either Statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority.9 In Michigan and 43 other States, the Units are located
                   within offices of State Attorneys General that have this authority. In the
                   remaining six States, the Units are located within other State agencies;
                   generally, such Units must refer cases to offices with prosecutorial
                   authority.10 Additionally, each Unit must be a single, identifiable entity of
                   State government, distinct from the State Medicaid agency, and each Unit
                   must develop a formal agreement—i.e., a memorandum of understanding
                   (MOU)—that describes the Unit’s relationship with that agency.11
                   Oversight of the MFCU Program
                   The Secretary of HHS delegated to OIG the authority both to annually
                   certify the Units and to administer grant awards to reimburse States for a
                   percentage of their costs of operating them.12 All Units are currently funded
                   by the Federal Government on a 75-percent matching basis, with the States
                   contributing the remaining 25 percent.13 To receive Federal reimbursement,
                   each Unit must submit an initial application to OIG.14 OIG reviews the
                   application and notifies the Unit whether it is approved and the Unit is
                   certified. Approval and certification are valid for a 1-year period; the Unit
                   must be recertified each year thereafter.15
                   Pursuant to Title XIX of the SSA, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements.16 OIG

                   8
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   May 8, 2013. Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered

                   funds in their annual reports to OIG. “Recoveries” are defined as the amount of money

                   that defendants are required to pay as a result of a judgment or settlement in criminal and 

                   civil cases, and may not reflect actual collections. Recoveries may involve cases that

                   include participation by other Federal and State agencies. 

                   9
                     SSA § 1903(q)(1).

                   10
                      In States with a Unit, the Unit shares responsibility for protecting the integrity of the 

                   Medicaid program with the section of the State Medicaid agency that functions as the

                   Program Integrity Unit. Some States, including Michigan, also employ a Medicaid 

                   Inspector General who conducts and coordinates anti-fraud, waste, and abuse activities 

                   for the State agency. 

                   11
                      SSA § 1903(q)(2) and 42 CFR § 1007.9(d). 

                   12
                      The portion of funds reimbursed to States by the Federal Government for its share of

                   expenditures for the Federal Medicaid program, including the MFCUs, is referred to as 

                   Federal Financial Participation (FFP). 

                   13
                      SSA § 1903(a)(6)(B).

                   14
                      42 CFR § 1007.15(a). 

                   15
                      42 CFR § 1007.15(b) and (c). 

                   16
                      SSA § 1902(a)(61).


Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                               2
                   developed and issued 12 performance standards to define the criteria that
                   OIG applies in assessing whether a Unit is effectively carrying out statutory
                   functions and meeting program requirements.17 Examples of standards
                   include maintaining an adequate caseload through referrals from several
                   sources, maintaining an annual training plan for all three of the professional
                   disciplines (i.e., for auditors, investigators, and attorneys), and establishing
                   policy and procedures manuals to reflect the Unit’s operations. See
                   Appendix A for a complete list of the performance standards.18
                   Michigan Unit
                   The Unit is an autonomous entity within the Michigan Attorney General’s
                   Criminal Justice Bureau and has the authority to prosecute cases of
                   Medicaid fraud and of patient abuse and neglect. At the time of our
                   review, 30 of the Unit’s 31 employees were located in East Lansing.19 The
                   Unit Director served as the Chief Attorney and directly supervised all Unit
                   attorneys, the Chief Investigator, and the Unit auditor.20 The Chief
                   Investigator directly supervised three Investigative Supervisors, each of
                   whom led an investigative team.21
                   The Unit receives referrals of provider fraud from the State Medicaid
                   agency—the Michigan Department of Community Health (DCH)—and
                   from Federal agencies, such as OIG. The Unit receives referrals of patient
                   abuse and neglect22 from the Michigan Long-Term Care Ombudsman and
                   the Michigan Department of Licensing and Regulatory Affairs (LARA).
                   In addition, the Unit receives both types of referrals from other State and
                   local agencies and from the public through a Medicaid Fraud Report
                   hotline and a fraud-reporting form located on the Michigan Attorney
                   General’s Web site. For additional information on Unit referrals, see
                   Appendix C.
                   Upon receiving a referral, a Unit investigative secretary enters the relevant
                   information into the Unit’s case file tracking system. An Investigative
                   Supervisor then screens the referral and decides whether to open it as a

                   17
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on May 8, 2013. 

                   18
                      Prior to the time of our onsite data collection (March 2013), OIG published a revision

                   of the performance standards, 77 Fed. Reg. 32645 (June 1, 2012). See Appendix B for a 

                   complete list of the revised performance standards. The performance standards referred 

                   to in this report were published in 1994 and were in effect during most of our review

                   period (FYs 2010 through 2012). When referring to the performance standards, we refer 

                   to the 1994 standards, unless otherwise noted.

                   19
                      One Unit attorney was based in Detroit. 

                   20
                      Since the time of our onsite review, the Unit has hired a Chief Attorney who directly 

                   supervises all Unit attorneys. The Unit Director supervises the Chief Attorney.
                   21
                      The Unit’s three investigative teams focus on fraud, residential care (patient abuse and
                   neglect), and special projects.
                   22
                      For the purposes of this report, misappropriation of patients’ private funds in
                   residential health care facilities is included in the category of patient abuse and neglect.

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                             3
                   case or refer it to another agency.23 For additional information on the
                   Unit’s opened and closed investigations, including a breakdown by case
                   type and provider category, see Appendix D.
                   After a referral is opened as a case, the Unit Director assigns the case to an
                   investigator, an attorney, and, as appropriate, an auditor; the assigned Unit
                   employees then meet to plan the case strategy. The Unit may open a case
                   and pursue it through a variety of actions, including criminal prosecution,
                   civil action, or a combination of the two. The Unit may close a case for a
                   variety of reasons, including but not limited to resolving it through
                   criminal and/or civil action or referring it to another agency.

                   METHODOLOGY
                   We analyzed data from seven sources: (1) Unit documentation, including
                   policies and procedures related to the Unit’s operations, staffing, and
                   caseload for FYs 2010 through 2012; (2) financial documentation for
                   FYs 2010 through 2012; (3) structured interviews with key stakeholders;
                   (4) a survey of Unit staff; (5) structured interviews with the Unit’s
                   management and selected staff; (6) an onsite review of case files that were
                   open at any point during FYs 2010 through 2012; and (7) an onsite review
                   of Unit operations.
                   We analyzed data from all seven sources to describe the caseload and
                   assess the performance of the Unit. We also analyzed the data to identify
                   any opportunities for improvement and any instances in which the Unit
                   did not meet the performance standards or was not operating in
                   accordance with laws, regulations, and/or policy transmittals.24 In
                   addition, we noted practices that appeared to benefit the Unit. We based
                   these observations on statements from Unit staff and data analysis. We
                   did not independently verify the effectiveness of these practices, but
                   included the information because it may be useful to other Units in their
                   operations.
                   We conducted the onsite review in March 2013.
                   Data Collection and Analysis
                   Review of Unit Documentation. We collected and reviewed (1) Unit
                   documentation, including policies and procedures related to the Unit’s


                   23
                      The Investigative Supervisor of the Fraud investigative team reviews all referrals of
                   provider fraud, and the Investigative Supervisor of the Residential Care investigative
                   team reviews all referrals of patient abuse and neglect. An Investigative Supervisor may
                   also assign a Unit investigator to gather more information on a referral before
                   determining whether to proceed with the investigation or refer it to another agency.
                   24
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                          4
                   operations, staffing, and cases; (2) the Unit’s annual reports and quarterly
                   statistical reports; and (3) the Unit’s responses to recertification
                   questionnaires. We reviewed this documentation to determine how the
                   Unit investigates and prosecutes Medicaid cases. The documentation also
                   included data such as the number of referrals received by the Unit and the
                   number of investigations opened and closed. Additionally, we confirmed
                   with the Unit Director that the information we had was current at the time
                   of our review and, as necessary, requested any additional data or
                   clarification that was needed.
                   Review of Financial Documentation. To evaluate internal controls of
                   fiscal resources, OIG auditors reviewed policies and procedures related to
                   the Unit’s budgeting, accounting systems, cash management, procurement,
                   property, and personnel. We obtained the Unit’s claimed grant
                   expenditures for FYs 2010 through 2012 to (1) review final Federal Status
                   Reports25 and supporting documentation, (2) select and review transactions
                   within direct cost categories to determine if costs were allowable, and
                   (3) verify that indirect costs were accurately computed using the approved
                   indirect cost rate. Finally, we reviewed records in the HHS Payment
                   Management System (PMS)26 and revenue accounts to identify any
                   unreported program income.27
                   Interviews With Key Stakeholders. We conducted structured interviews
                   with eight individual stakeholders among five agencies who were familiar
                   with Unit operations. Specifically, we interviewed the Program Integrity
                   Manager for DCH’s Office of Health Services Inspector General;
                   Michigan’s Long-Term Care Ombudsman; three Assistant U.S. Attorneys
                   based in Michigan; the Michigan Attorney General’s Criminal Justice
                   Bureau Chief;28 an OIG Special Agent based in East Lansing; and the OIG
                   Assistant Special Agent in Charge for the State of Michigan. These
                   interviews focused on the Unit’s interaction with external agencies, Unit
                   operations, opportunities for improvement, and any practices that appeared
                   to benefit the Unit and that may be useful to other Units in their
                   operations.



                   25
                      The Unit transmits financial status reports to OIG’s Office of Management and Policy
                   on a quarterly and annual basis. These reports detail Unit income and expenditures.
                   26
                      The PMS is a grant payment system operated and maintained by the HHS Program
                   Support Center, Division of Payment Management. The PMS provides disbursement,
                   grant monitoring, reporting, and cash management services to awarding agencies and
                   grant recipients, such as Units.
                   27
                      Program income is defined as “gross income received by the grantee or subgrantee
                   directly generated by a grant supported activity, or earned only as a result of the grant
                   agreement during the grant period.” 45 CFR § 92.25(b).
                   28
                      The Attorney General’s Criminal Justice Bureau Chief supervises the Unit Director.

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                               5
                   Survey of Unit Staff. We conducted an online survey of Unit staff.29 We
                   requested and received responses from 27 staff members, for a
                   100-percent response rate. Our questions focused on Unit operations,
                   opportunities for improvement, and practices that appeared to benefit the
                   Unit and that may be useful to other Units in their operations. The survey
                   also sought information about the Unit’s compliance with applicable laws,
                   regulations, and policy transmittals.
                   Interviews With Unit Management and Selected Staff. We conducted
                   structured interviews with the Unit’s Director, Chief Investigator, and
                   auditor. We asked them to provide us with additional information
                   necessary to better understand the Unit’s operations, identify opportunities
                   for improvement, identify practices that appeared to benefit the Unit and
                   that may be useful to other Units in their operations, and clarify
                   information obtained from other data sources.
                   Onsite Review of Case Files. We selected a simple random sample of
                   100 case files from the 1,068 cases30 that were open at any point from
                   FY 2010 through FY 2012. The design of this sample allowed us to
                   estimate the percentage of all 1,068 cases with various characteristics at
                   the 95-percent confidence level. We reviewed these 100 sampled case
                   files and the Unit’s processes for monitoring the status and outcomes of
                   cases. From these 100 case files, we selected another simple random
                   sample of 50 files and conducted a more comprehensive review to identify
                   any other potential issues from a qualitative perspective. For population
                   and sample size counts, as well as confidence interval estimates, see
                   Appendix E.
                   Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we observed the intake of referrals, data analysis
                   operations, security of data and case files, and the general functioning of
                   the Unit.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.31



                   29
                      We did not survey the Unit Director, Chief Investigator, and Unit auditor because we
                   interviewed these employees onsite. In addition, one Unit attorney was not available to
                   respond to the survey.
                   30
                      This figure includes cases opened before FY 2010 that remained open at some point
                   during FYs 2010–2012. 

                   31
                      Full text of these standards is available online at 

                   http://www.ignet.gov/pande/standards/oeistds11.pdf. 


Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                             6
                   FINDINGS
                   From FY 2010 through FY 2012, the Unit reported
                   recoveries of $144 million, 64 convictions, and 53 civil
                   judgments and settlements
                   From FY 2010 through FY 2012, the Unit reported total criminal and civil
                   recoveries of $144 million—an annual average of $48 million (see
                   Table 1). Of the $144 million in recoveries, the Unit attributed
                   $139.8 million to civil recoveries and $4.2 million to criminal recoveries.
                   “Global” case judgments and settlements accounted for $136.6 million of
                   the total civil recoveries and global cases accounted for 190 of the Unit’s
                   1,068 cases over the 3-year period.32 The Unit’s annual average
                   expenditures for FYs 2010 through 2012 were $4.6 million.33
                   Table 1: Recovered Funds Reported by the Michigan Unit,
                   FYs 2010 Through 2012
                                                                                                                         Annual
                                                  FY 2010          FY 2011           FY 2012       3-Year Total
                                                                                                                        Average*

                    Global Civil
                                             $51,861,436      $35,088,541       $49,682,632       $136,632,609       $45,544,203
                    Recoveries

                    Nonglobal Civil
                                               $2,323,024         $357,949          $412,736         $3,093,709       $1,031,236
                    Recoveries

                    Total Civil
                                             $54,184,460      $35,446,490       $50,095,368       $139,726,318       $46,575,439
                    Recoveries

                    Criminal
                                                 $517,736         $443,359       $3,264,817          $4,225,912       $1,408,637
                    Recoveries

                    Total Civil and
                    Criminal                 $54,702,196      $35,889,849       $53,360,185       $143,952,230       $47,984,077
                    Recoveries

                    Total
                                               $5,030,100       $4,065,936       $4,571,020        $13,667,056        $4,555,685
                    Expenditures

                   Source: OIG review of Unit self-reported Quarterly Statistical Reports (QSRs) and other data, FYs 2010-2012.

                   *Averages in this table are rounded.


                   From FY 2010 through FY 2012, the Unit Reported 64 Convictions and
                   53 Civil Judgments and Settlements. From FY 2010 through FY 2012, the
                   Unit’s convictions and civil judgments and settlements remained at a
                   consistent level. During this period, the Unit reported 64 convictions and



                   32
                      Unit-reported recoveries include funds recovered from multi-State, or “global” civil
                   false claims cases, which consist of both those worked directly by the Unit and those
                   worked by staff from other Units.
                   33
                      The figures presented in this paragraph are rounded.

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                                                  7
                   53 civil judgments and settlements—an annual average of 21convictions
                   and 18 civil judgments and settlements (see Table 2).34
                   Table 2: Unit Convictions and Civil Judgments and Settlements,
                   FYs 2010 Through 201235
                                                                                                       3-Year   Annual
                                                                FY 2010      FY 2011       FY 2012
                                                                                                        Total   Average

                    Convictions                                        22           21            21       64      21.3


                    Civil Judgments and Settlements                    19           19            15       53      17.7


                   Source: OIG review of Unit self-reported QSRs and other data, FYs 2010-2012.


                   From FYs 2010 through 2012, the Unit opened an average of 226 cases
                   annually, with an average of 158 cases of provider fraud and 68 cases of
                   patient abuse and neglect. From FYs 2010 through 2012, the Unit closed
                   an average of 192 cases annually, averaging 114 cases of provider fraud
                   and 78 cases of patient abuse and neglect.36 From FYs 2010 through
                   2012, the Unit received an average of 5,537 referrals annually, with an
                   average of 956 referrals of provider fraud and 4,581 referrals of patient
                   abuse and neglect.

                   The Unit maintained proper fiscal control of its
                   resources
                   According to Performance Standard 11, the Unit Director should exercise
                   proper fiscal control over the Unit’s resources. On the basis of the review
                   conducted by OIG auditors, the Unit’s financial documentation indicated
                   that the Unit’s expenditures claims for FYs 2010 through 2012 represented
                   allowable, allocable, and reasonable costs. In addition, the Unit
                   maintained adequate internal controls relating to accounting, budgeting,
                   personnel, procurement, property, and equipment.

                   Most Unit case files contained documentation of
                   supervisory approval to close cases; however,
                   21 percent of case files lacked documentation of
                   supervisory approval to open cases and 67 percent
                   lacked documentation of periodic supervisory reviews
                   According to Performance Standard 6(b), Unit supervisors should approve
                   the opening and closing of cases to ensure a continuous case flow and the
                   timely completion of cases. Supervisory approval to open and close cases

                   34
                      These averages are rounded. 

                   35
                      Civil Judgments and/or Settlements include those received from global cases. 

                   36
                      Closures include multiple cases opened before FY 2010. 


Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                                      8
                   suggests that Unit supervisors are monitoring the intake and resolutions of
                   cases, thereby facilitating progress in the cases. The Unit documented
                   supervisory approval to close cases in 98 percent of closed case files.
                   Although Unit supervisors reported that they approved the opening of all
                   case files, 21 percent of the case files lacked documentation of supervisory
                   approval to open cases.
                   According to Performance Standard 6(c), supervisory reviews should be
                   “conducted periodically and noted in the case file” to ensure timely case
                   completion.37 Although Unit supervisors reported that they consistently
                   conducted periodic supervisory reviews, 67 percent of the files lacked
                   documentation of periodic supervisory reviews. During our onsite review,
                   Unit management provided a “case status form” that was introduced
                   toward the end of FY 2011 to ensure that periodic supervisory reviews are
                   documented in Unit case files. After the introduction of the case status
                   form, the percentage of closed case files that lacked documentation of
                   periodic supervisory reviews decreased in FY 2012, from 84 percent of
                   case files closed in FYs 2010–2011 to 39 percent of case files closed in
                   FY 2012. Similarly, the percentage of case files that lacked
                   documentation of periodic supervisory reviews decreased in FY 2012,
                   from 71 percent of case files opened in FYs 2010–2011 to 43 percent of
                   case files opened in FY 2012. The case status form is now included with
                   each case file and contains columns for the supervisory review date, the
                   case status, and the reviewing supervisor’s initials.

                   The Unit did not refer 69 percent of sentenced
                   individuals to OIG for program exclusion within an
                   appropriate timeframe
                   According to Performance Standard 8(d), when a convicted individual is
                   sentenced, the Unit should send a referral letter to OIG “within 30 days or
                   other reasonable time period” for the purpose of program exclusion.38, 39
                   The Unit reported 64 total convictions within the review period, but had not


                   37
                      For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a periodic supervisory review. “Periodic supervisory reviews” indicate that a
                   supervisor reviewed a case more than once between the case’s opening and closing and
                   documented those reviews in the case file.
                   38
                      Pursuant to section 1128(a) of the SSA, OIG excludes from participation in Federal
                   health care programs any person or entity convicted of a criminal offense related to the
                   delivery of an item or service under the Medicaid program or to the neglect or abuse of
                   patients in connection with the delivery of a health care item or service. No payment
                   may be made by Medicaid, Medicare, or other Federal health care programs for an item
                   or service provided, ordered, or prescribed by an excluded individual or entity.
                   42 CFR § 1001.1901.
                   39
                      According to Standard 8(f) of the 2012 Performance Standards, all referrals for
                   exclusion should be transmitted to OIG “within 30 days.”

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                                9
                   referred 44 (69 percent)40 of those sentenced individuals to OIG for program
                   exclusion as of our onsite review. Of these 44 individuals, 7 had not been
                   referred to OIG as of 6 months from the sentencing date, 12 had not been
                   referred as of a year from the sentencing date, 19 had not been referred as of
                   2 years from the sentencing date, and 6 had not been referred as of 3 years
                   from the sentencing date.
                   During our onsite review, Unit management reported that it was unaware
                   that the Unit was required to refer 30 of these 44 individuals, who were
                   sentenced for financial exploitation of residential health care facility
                   patients. Unit management also reported that it was unaware that it should
                   have referred an additional 8 of the 44 sentenced individuals who were
                   jointly investigated by the Unit and external agencies, as the Unit was not
                   the lead investigative agency in these cases.41 Finally, Unit management
                   reported that it was unaware that it should have referred 4 of the
                   44 sentenced individuals because they were beneficiaries who were
                   sentenced for conspiring with providers to commit Medicaid fraud.42 The
                   Unit has provided documentation to OIG demonstrating that 27 of these
                   44 sentenced individuals have been referred to OIG for program exclusion
                   since the time of our onsite review. According to the Unit, the remaining
                   17 sentenced individuals will be referred to OIG for program exclusion.

                   The Unit’s policies and procedures manual was not
                   updated, and the Unit’s MOU with DCH did not reflect
                   current law and practice
                   According to Unit management, the Unit’s policies and procedures manual
                   had not been updated since the 1990s.43 As a result, it did not reflect any
                   subsequent changes to Unit policies or procedures. In addition, the Unit’s
                   October 2010 MOU with DCH had not been updated to include the
                   payment suspension referral process.




                   40
                      This percentage is rounded.

                   41
                      The Unit reported that it did not have a tracking mechanism to ensure that these 

                   sentenced providers were referred to OIG for program exclusion by the external 

                   investigating agency. In seven of the eight cases, the providers were not referred to OIG 

                   for program exclusion by the external investigating agency. 

                   42
                      The Unit had no explanation for why the remaining 2 of the 44 sentenced individuals

                   were not referred to OIG for program exclusion.

                   43
                      Unit management did not know precisely when the Unit’s policies and procedures 

                   manual had last been updated.


Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                           10
                   The Unit’s policies and procedures manual was not updated to
                   reflect current Unit operations
                   According to Performance Standard 3, the Unit should establish policies
                   and procedures for its operations, which should be included in a manual.
                   However, the Unit’s manual had not been updated to include changes to
                   the Unit’s policies and procedures, such as the case file review policy that
                   was introduced in FY 2011. This policy includes the use of the case status
                   form to ensure that periodic supervisory reviews are documented in Unit
                   case files.
                   The Unit’s MOU with DCH did not reflect current law and
                   practice
                   According to Performance Standard 10, a Unit should periodically review
                   its MOU with the State Medicaid agency to ensure that the MOU reflects
                   current law and practice. As required by Federal regulations, the Unit had
                   an MOU with DCH.44 However, the Unit’s MOU with DCH had not been
                   updated to include a provision describing the referral process between the
                   Unit and DCH for providers who are subject to a payment suspension on the
                   basis of a credible allegation of fraud.45 Unit management reported that it
                   is working with DCH to issue a revised MOU that incorporates the
                   payment-suspension provision.

                   Other Observations
                   During our onsite review, we noted two practices that may have been
                   beneficial to Unit operations: (1) an OIG workstation within the Unit that
                   promoted cooperation between the Unit and OIG, and (2) the Unit’s
                   streamlined patient abuse and neglect referral process.

                   According to the Unit, having an OIG workstation within the
                   Unit promoted cooperation between the Unit and OIG

                   According to Performance Standard 8, the Unit “will cooperate with the
                   OIG and other Federal agencies, whenever appropriate and consistent with
                   its mission, in the investigation and prosecution of health care fraud.”
                   Performance Standard 8(a-c) specifies that “cooperation” includes


                   44
                     42 CFR § 1007.9(d).
                   45
                     The Affordable Care Act, § 6402(h)(2), requires State Medicaid programs, as a
                   condition of receiving FFP, to suspend payments to providers for whom there is a
                   credible allegation of fraud, unless good cause exists to not suspend payments. One way
                   to establish good cause is for the MFCU to inform the Medicaid agency that the
                   suspension would compromise or jeopardize its investigation of the provider. CMS and
                   OIG implemented this provision in revisions to 42 CFR §§ 455.23 and 1007.9(e)
                   effective March 25, 2011 (76 Fed. Reg. 5862, February 2, 2011).

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                        11
                   “communicating effectively” with the OIG and other Federal agencies,
                   providing timely information about Unit case actions to those agencies,
                   and having effective case referral procedures. To facilitate
                   communication about joint Unit-OIG investigations and to increase the
                   number of case referrals between the Unit and OIG, the Unit makes
                   workspace available to an OIG Special Agent within the Unit offices; the

                   OIG agent uses this workspace once or twice a week.46, 47 Unit
                   management, staff, and stakeholders reported that the OIG workspace
                   within the Unit benefitted the Unit’s performance by encouraging fraud
                   referrals, facilitating communication between the agencies, and promoting
                   efficiency through an informal, reciprocal assessment of potential
                   referrals.

                   The Unit streamlined its patient abuse and neglect referral
                   process

                   According to Performance Standard 6, a Unit should have a continuous
                   case flow and cases should be completed within a reasonable time period.
                   According to Unit management and staff, before FY 2011, a large
                   proportion of patient abuse and neglect referrals from LARA were related
                   to matters inconsistent with the Unit’s statutory functions.48 Those
                   referrals reportedly reduced Unit efficiency by diverting Unit time and
                   resources from ongoing cases. In response, Unit management and LARA
                   developed a streamlined process for referring cases of patient abuse and
                   neglect during FY 2011. This process sets certain minimum criteria for a
                   referral to be sent to the Unit. Unit management and staff reported that
                   this process reduced the total number of referrals from LARA without
                   limiting those referrals that were consistent with the Unit’s statutory
                   functions, thereby promoting Unit efficiency and case flow. As a result of
                   the streamlined referral process, the total number of referrals from LARA
                   of patient abuse and neglect was reduced from 5,446 in FY 2011 to
                   2,482 in FY 2012.




                   46
                      The Unit does not pay for the equipment or wireless internet connection used by the
                   OIG agent; these are funded directly by the OIG Office of Investigations. 

                   47
                      The OIG staff to whom the Unit transmits information for the purpose of excluding

                   providers are located in a headquarters office distinct from the office that employs OIG 

                   field agents. 

                   48
                      For example, many of the referrals received from LARA before FY 2011 included 

                   complaints from family members of long-term care facility residents about incidents that 

                   did not rise to the level of criminal abuse or neglect.


Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                          12
                   CONCLUSION AND RECOMMENDATIONS
                   From FY 2010 through FY 2012, the Unit reported recoveries of
                   $144 million, 64 convictions, and 53 civil judgments and settlements.
                   Most Unit case files consistently contained documentation indicating
                   supervisory approval to close cases. The Unit maintained proper fiscal
                   control of its resources. According to the Unit, having an OIG
                   workstation within the Unit promoted cooperation between the Unit and
                   OIG. Finally, the Unit improved its case flow by streamlining its patient
                   abuse and neglect referral process.
                   Opportunities for Unit improvement exist. Specifically, Unit case files did
                   not consistently contain documentation of supervisory approval to open
                   cases or periodic supervisory reviews. In addition, the Unit did not refer
                   69 percent of sentenced individuals to OIG for program exclusion within
                   an appropriate timeframe. The Unit’s policies and procedures manual also
                   had not been updated to reflect the Unit’s periodic case file review policy.
                   Finally, the Unit’s MOU with DCH did not reflect current law and
                   practice. We found no evidence of noncompliance with applicable laws,
                   regulations, or policy transmittals.
                   We recommend that the Michigan Unit:
                   Ensure that supervisory approval to open cases and periodic
                   supervisory reviews are documented in Unit case files
                   The Unit should ensure that supervisors are consistently reviewing case
                   files and documenting these reviews on case status forms.
                   Ensure that letters referring providers for exclusion are
                   submitted to OIG within an appropriate timeframe
                   The Unit should ensure that letters referring individuals and entities for
                   exclusion are sent within 30 days of defendant sentencing, consistent with
                   Standard 8(f) of the 2012 Performance Standards. The Unit should also
                   ensure that it refers all sentenced individuals for exclusion, regardless of
                   the type of crime or the Unit’s specific role in the investigation and/or
                   prosecution of a provider.
                   Revise its policies and procedures manual to reflect current
                   Unit operations
                   The Unit should revise its policies and procedures manual to include its
                   periodic case file review policy.
                   Revise its MOU with DCH to reflect current law and practice
                   The Unit should revise its MOU with DCH to include a provision
                   describing the referral process between the Unit and DCH for providers
                   who are subject to payment suspension on the basis of a credible
                   allegation of fraud.

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)               13
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Unit concurred with the four report recommendations.
                   Regarding our first recommendation, the Unit reported that it created and
                   now uses an assignment memo, to be signed by the Unit Director, which is
                   included in the file for each full-scale investigation. The Unit also created
                   a case status form to be kept in each case’s file to document periodic
                   supervisory review of the file.
                   Regarding our second recommendation, the Unit explained that, for a
                   majority of those cases not reported to OIG for exclusion, either (1) the
                   underlying case was not “connected to the delivery of a health care item or
                   service” under the terms of the Federal exclusion law, or (2) the case
                   involved a joint investigation and the Unit was not the primary
                   investigative agency. The Unit also understands and accepts OIG’s
                   interpretation that all convictions should be reported to OIG for program
                   exclusion, regardless of the Unit’s role in each case or the type of
                   individual convicted.
                   Regarding our third recommendation, the Unit created a revised draft of its
                   policies and procedures manual, which the Unit expects to formalize and
                   distribute to Unit staff during the first quarter of 2014.
                   Regarding our fourth recommendation, the Unit created a revised draft of
                   its MOU with DCH that should be in place by the end of January 2014.
                   The full text of the Unit’s comments is provided in Appendix F. We did
                   not make any changes to the report as a result of the Unit’s comments.




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)             14
                   APPENDIX A
                   Performance Standards for MFCUs (Units)49
                   1. 	A Unit will be in conformance with all applicable statutes,
                       regulations and policy transmittals. In meeting this standard, the
                       Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                        b.	 The Unit must be separate and distinct from the single State
                            Medicaid agency.
                        c.	 The Unit must have prosecutorial authority or an approved formal
                            procedure for referring cases to a prosecutor.
                        d.	 The Unit must submit annual reports, with appropriate 

                            certifications, on a timely basis.

                        e.	 The Unit must submit quarterly reports on a timely basis.
                       f.	 The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                   2. 	A Unit should maintain staff levels in accordance with staffing
                       allocations approved in its budget. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the Office of Inspector General
                           (OIG)?
                        b.	 Does the Unit employ the number of attorneys, auditors, and
                            investigators that were approved in the Unit's budget?
                        c.	 Does the Unit employ a reasonable size of professional staff in
                            relation to the State's total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                   3. 	A Unit should establish policies and procedures for its operations,
                       and maintain appropriate systems for case management and case
                       tracking. In meeting this standard, the following performance
                       indicators will be considered:

                   49
                     59 Fed. Reg. 49080 (Sept. 26, 1994). These performance standards were in effect
                   during most of our review period and precede the performance standards published in
                   June 2012.

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                         15
                       a.	 Does the Unit have policy and procedure manuals?
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                   4. A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                   5. 	A Unit’s case mix, when possible, should cover all significant
                       provider types. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                   6. 	A Unit should have a continuous case flow, and cases should be
                       completed in a reasonable time. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?


Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                16
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                      a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                   8. 	A Unit will cooperate with the OIG and other federal agencies,
                       whenever appropriate and consistent with its mission, in the
                       investigation and prosecution of health care fraud. In meeting this
                       standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                   9. 	A Unit should make statutory or programmatic recommendations,
                       when necessary, to the State government. In meeting this standard,
                       the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State's statutes when necessary and appropriate to
                           do so?
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)               17
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                   10. 	A Unit should periodically review its memorandum of
                       understanding (MOU) with the single State Medicaid agency and
                       seek amendments, as necessary, to ensure it reflects current law
                       and practice. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                   11. The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)              18
                   APPENDIX B
                   Revised 2012 Performance Standards for MFCUs (Units)50
                   1. 	A Unit conforms with all applicable statutes, regulations, and
                       policy directives, including:
                          a.	 Section 1903(q) of the Social Security Act, containing the basic
                              requirements for operation of a MFCU;
                          b.	 Regulations for operation of a MFCU contained in 42 CFR 

                              part 1007; 

                          c.	 Grant administration requirements at 45 CFR part 92 and Federal
                              cost principles at 2 CFR part 225;
                          d.	 OIG policy transmittals as maintained on the OIG Web site; and
                          e.	 Terms and conditions of the notice of the grant award.
                   2. 	A Unit maintains reasonable staff levels and office locations in
                       relation to the State’s Medicaid program expenditures and in
                       accordance with staffing allocations approved in its budget.
                          a.	 The Unit employs the number of staff that is included in the Unit’s
                              budget estimate as approved by OIG.
                          b.	 The Unit employs a total number of professional staff that is
                              commensurate with the State’s total Medicaid program
                              expenditures and that enables the Unit to effectively investigate
                              and prosecute (or refer for prosecution) an appropriate volume of
                              case referrals and workload for both Medicaid fraud and patient
                              abuse and neglect.
                          c.	 The Unit employs an appropriate mix and number of attorneys,
                              auditors, investigators, and other professional staff that is both
                              commensurate with the State’s total Medicaid program
                              expenditures and that allows the Unit to effectively investigate and
                              prosecute (or refer for prosecution) an appropriate volume of case
                              referrals and workload for both Medicaid fraud and patient abuse
                              and neglect.
                          d.	 The Unit employs a number of support staff in relation to its
                              overall size that allows the Unit to operate effectively.
                          e.	 To the extent that a Unit maintains multiple office locations, such
                              locations are distributed throughout the State, and are adequately


                   50
                        77 Fed. Reg. 32645 (June 1, 2012).

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                  19
                            staffed, commensurate with the volume of case referrals and
                            workload for each location.
                   3. 	A Unit establishes written policies and procedures for its
                       operations and ensures that staff are familiar with, and adhere to,
                       policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                   4. 	A Unit takes steps to maintain an adequate volume and quality of
                       referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                20
                            takes steps, such as the development of operational protocols, to
                            ensure that pertinent agencies refer such cases to the Unit,
                            consistent with patient confidentiality and consent. Pertinent
                            agencies vary by State but may include licensing and certification
                            agencies, the State Long Term Care Ombudsman, and adult
                            protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                   5. 	A Unit takes steps to maintain a continuous case flow and to
                       complete cases in an appropriate timeframe based on the
                       complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                   6. 	A Unit’s case mix, as practicable, covers all significant provider
                       types and includes a balance of fraud and, where appropriate,
                       patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                 21
                   7. 	A Unit maintains case files in an effective manner and develops a
                       case management system that allows efficient access to case
                       information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of
                                     recoveries and the types of relief obtained through civil
                                     judgments or prefiling settlements.



Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                 22
                   8. 	A Unit cooperates with OIG and other Federal agencies in the
                       investigation and prosecution of Medicaid and other health care
                       fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                   9. 	A Unit makes statutory or programmatic recommendations, when
                       warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies

Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)               23
                            responsible for Medicaid operations or funding. The Unit monitors
                            actions taken by the State legislature and the State Medicaid or
                            other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding
                         (MOU) with the State Medicaid agency to ensure that it reflects
                         current practice, policy, and legal requirements.
                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                   11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in
                           45 CFR 92.20.




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)              24
                   12. 	A Unit conducts training that aids in the mission of the Unit.
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                 25
                   APPENDIX C
                   Referrals of Provider Fraud and Patient Abuse and Neglect to
                   the Michigan MFCU by Source, FYs 2010 Through 2012
                   Table C-1: Total MFCU Referrals of Fraud and Abuse and Annual Average

                                                                                                                              Annual
                    Case Type                              FY 2010          FY 2011       FY 2012      3-Year Total
                                                                                                                             Average*
                    Patient Abuse and Neglect                   5,514         5,581         2,647              13,742            4,581
                    Provider Fraud                              1,016             997         855               2,868              956
                     Total                                      6,530         6,578         3,502              16,610            5,537

                  Source: Unit response to OIG data request.
                  *Averages in this column are rounded.

                   Table C-2: Unit Referrals, by Referral Source

                                              FY 2010                   FY 2011               FY 2012
                                                    Abuse                     Abuse                  Abuse                    Percentage
                    Referral
                                        Fraud         and        Fraud          and       Fraud        and        Total            of All
                    Source
                                                   Neglect                   Neglect                Neglect                     Referrals
                    State Survey
                    and
                                              63     5,248           50        5,446         32        2,482     13,321            80.2%
                    Certification
                    Agency
                    MFCU Hotline          633             31       624             19       532          28       1,867            11.2%
                    Private
                                          212             74       216             97       208         128        935              5.6%
                    Citizens
                    Other                     34          154        34            13        10            1       246              1.5%
                    State Medicaid
                                              49           0         40               0      34            0       123              0.7%
                    Agency
                    Other State
                                              8            2         14               2      10            3            39          0.2%
                    Agencies
                    Law
                                              7            1            8             0       1            0            17          0.1%
                    Enforcement
                    OIG                       9            1            3             0       4            0            17          0.1%
                    Licensing
                                              0            1            1             1       7            4            14         <0.1%
                    Board
                    Private Health
                                              0            0            4             0       9            0            13         <0.1%
                    Insurers
                    Adult
                    Protective                0            2            1             3       3            1            10         <0.1%
                    Services
                    Prosecutors               1            0            2             0       5            0             8         <0.1%
                      Total             1,016        5,514         997         5,581        855        2,647     16,610            100%
                      Annual
                                                     6,530                     6,578                   3,502
                      Total
                      Annual
                                                                                                       5,537
                      Average*
                  Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2010 through 2012.
                  *This average is rounded.




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                                                   26
                   APPENDIX D
                   Investigations Opened and Closed by the Michigan MFCU, by
                   Provider Category and Case Type, FYs 2010 Through 2012



                   Table D-1: Total Annual Opened and Closed Investigations

                                                                                                                          Annual
                   Case Type                        FY 2010         FY 2011        FY 2012       3-Year Total
                                                                                                                         Average*
                   Opened                                 268            209           200               677                 226
                      Patient Abuse and
                                                          119             35            49               203                  68
                      Neglect
                      Provider Fraud                      149            174           151               474                 158
                   Closed                                 247            162           166               575                 192
                      Patient Abuse and
                                                          140             57            36               233                  78
                      Neglect
                      Provider Fraud                      107            105           130               342                 114

                  Source: Unit response to OIG data request.
                  *Averages in this table are rounded.




                   Table D-2: Patient Abuse and Neglect Investigations


                    Provider Category                          FY 2010                   FY 2011                   FY 2012

                                                         Opened       Closed        Opened         Closed       Opened     Closed
                    Nondirect Care                              3              1             1          1            0          0

                    Nurses/Doctors’ Assistants                  7              7             6          2           11          7

                    Nursing Facilities                          5              8             6          6            9          2
                    Other Long-Term Care
                                                                0              0             0          2            0          1
                    Facilities
                    Other                                   104           124            22            46           29         26

                       Total                                119           140            35            57           49         36

                   Source: Unit response to OIG data request.




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                                               27
                   Table D-3: Provider Fraud Investigations

                    Provider Category                       FY 2010              FY 2011            FY 2012
                    Facilities                         Opened        Closed   Opened   Closed    Opened   Closed
                       Hospitals                                 1        0        5         3        4         2
                       Nursing Facilities                       4       17         2        0         3         4
                       Other Long-Term Care
                                                                 0        1        1         1        1         0
                       Facilities
                       Substance Abuse
                                                                 0        2        0         0        1         0
                       Treatment Centers
                       Other Facilities                          5        3        7         3        2         3
                     Subtotal                              10            23       15        7        11        9
                    Practitioners                      Opened        Closed   Opened   Closed    Opened   Closed
                       Chiropractors                             0        1        1         0        0         0
                       Counselors/
                                                                 4        1        2         4        6         2
                       Psychologists
                       Dentists                                 5         9       11         1        3         5

                       Optometrists/Opticians                   0        0         1        1         0         0

                       Physicians                               20       12       15         9       24        17

                       Podiatrists                              0        0         0        1         1        0

                       Other Practitioners                       0        0        0         0        1         0
                     Subtotal                              29            23       30       16        35       24
                    Medical Support                    Opened        Closed   Opened   Closed    Opened   Closed
                      Durable Medical
                                                                13        2       13         7        3        12
                      Equipment Suppliers
                      Home Health Care
                                                                 3        2        5         1        3         3
                      Agencies
                       Home Health Care Aides                    5        4        5         5        6         4
                       Laboratories                              6        0        3         4        6         3
                       Nurses/Doctors’
                                                                 1        3        1         1        2         0
                       Assistants
                       Pharmaceutical
                                                                55       25       66        39       40        51
                       Manufacturers
                       Pharmacies                               21       16       21        17       23        15
                       Radiologists                             0        1         0        0         0        0
                       Transportation Services                   0        0        2         1       10         2
                       Other Medical Support                    6         7       11         6       10         7
                     Subtotal                             110            60      127       81       103       97
                    Program Related                    Opened        Closed   Opened   Closed    Opened   Closed
                       Billing Company                           0        0        1         0        2         0
                       Managed Care                             0        1         1        1         0         0
                      Subtotal                                  0         1        2        1         2         0
                      Total                                 149         107      174       105      151       130

                   Source: Unit response to OIG data request.




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                              28
                   APPENDIX E
                   Case File Review Population, Sample Size Counts, and
                   Confidence Interval Estimates
                   Table E-1 shows population and sample counts and percentages by case
                   type. Note that both samples have percentages of case types similar to the
                   general population, though sample counts for some case types are very
                   small. Because of these small sample sizes, we cannot reliably generalize
                   what we found in our sample review to each case type in the population,
                   and only our overall estimates project to the population of all case files.
                   We estimated the 4 population values for all 1,068 case files from the
                   results of our review of the case files selected in our simple random
                   samples. Table E-2 includes the estimate descriptions, sample sizes, point
                   estimates, and 95-percent confidence intervals for these four estimates.

                   Table E-1: Population and Sample Size Counts for Case Types
                                                        Population Count                 Sample Count*             Sample Count*
                    Case Type
                                                         and (%) n=1,068                  and (%) n=100             and (%) n=50

                    Closed                                        621 (58%)                      62 (62%)                  27 (54%)

                    Open                                          447 (42%)                      38 (38%)                  23 (46%)

                    Civil                                         440 (41%)                      39 (39%)                  19 (38%)

                    Criminal                                      628 (59%)                      61 (61%)                  31 (62%)

                    Patient Abuse/Neglect                         304 (28%)                      29 (29%)                  12 (24%)

                    Total Fraud                                   764 (72%)                      71 (71%)                  38 (76%)

                        “Global” Fraud                          190 (18%**)                    22 (22%**)                13 (26%**)

                         Non-“Global” Fraud
                        (Provider Fraud)                        574 (54%**)                    49 (49%**)                25 (50%**)

                   Source: The Michigan MFCU provided a list of all case files open during FYs 2010 through 2012. 

                   *OIG generated this random sample. 

                   **These percentages refer to the total/sampled number of all cases, not to the total/sampled number of fraud cases. 





Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                                                   29
                   Table E-2: Confidence Intervals for Key Case File Review Data
                                                                            Point   95-Percent Confidence
                    Estimate Description           Sample Size
                                                                         Estimate                 Interval
                    Case Files With
                    Documented Supervisory                    62            98.4%              91.6–99.8%
                    Approval for Closing
                    Case Files With No
                    Documented Supervisory                   100            21.0%              13.8–30.0%
                    Approval for Opening
                    Case Files With No
                    Documentation of at
                                                             100            60.0%              50.2–69.3%
                    Least One Supervisory
                    Review
                    Case Files With No
                    Documentation of
                                                             100            67.0%              57.3–75.8%
                    Periodic Supervisory
                    Review




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)                        30
                   APPENDIX F
                   Unit Comments




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)   31
Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)   32
              Stuart vVright
              Page 3
              December 19, 2013

                  Recommendation #4:            Revise the MOU with the Department of
              Community Health.

                   Unit Comment:       The lVIFCU concurs with this recommendation. The last
             operational MOU with the Department of Community Health (DCH) was executed
             in October of 2010 and is now stale in a number of respects. The MFCU created a
             new draft MOU and has provided that draft: to DCH for review and comment on
             October 25, 2013. Since then, the two agencies have made adjustments to the
             language and an updated MOU should be in place by the end of January of 2014.

                   Once again, I thank yon ibr the opportunity to comment on your report and
             appreciate how this process has had a positive impact on the Unit.



                                                             Sincerely,

                                                                /S/
                                                             David E. Tanay
                                                             Division Chief
                                                             Health Care Fraud Division
                                                             fil7-241-G500
             DET/jk

             cc:    Susan Burbach




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)               33
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy S. Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Matthew DeFraga served as the lead analyst for this study. Other Office
                   of Evaluation and Inspections staff from the San Francisco Regional
                   Office who provided support include Rosemary Rawlins. Central office
                   staff who provided support include Susan Burbach, Kevin Farber,
                   Christine Moritz, Andrew VanLandingham, and Sherri Weinstein. Office
                   of Audit Services staff who provided support include Brian Anderson and
                   Timothy Heslop. Office of Investigations staff who provided support
                   include David Vail.




Michigan State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-09-13-00070)          34
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
